;

No. 20-7527
In The
SUPREME COURT OF THE UNITED STATES
Kimberly Johnston,
Petitioner,
v.
Mark J. McGinnis, et al.,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals for the
Seventh Circuit

!

!

PETITON FOR REHEARING
Kimberly Johnston, Petitioner, Pro Se
230 W. High St.
Seymour, WI 54165v
920.639.6546
Gabe Johnson-Karp, Wisconsin Dept, of Justice
Defendants’ Counsel
17 West Main St.
Madison, WI 53703

!

i

i

I
t
I

i
9

\

;

TABLE OF CONTENTS
[

i

!

TABLE OF CONTENTS...................................

!

TABLE OF AUTHORITIES...........................

11

PETITION FOR REHEARING...............

1

REASONS FOR GRANTING THE PETITION

2

CONCLUSION.......................

7

I

!

\

;
i

I

I

!
1

!

TABLE OF AUTHORITIES
\
!

Cases
3
Cohens v. Virginia, 19 U.S. 264 (1821).........................
Resuce Army v. Municipal Court, 331 U.S. 549 (1947)....5

Rules
Rule 44.2..........

■

;

1

U. S. Constitution
First Amendment................
U.S. Constitution Article III

3
2

i
i

\_
11

i

PETITION FOR REHEARING
According to Supreme Court Rule 44.2,
Kimberly A. Johnston respectfully Petitions for
Rehearing of the Court’s Decision to deny the Petition
for Writ of Certiorari dated March 23, 2021. Ms.
Johnston moves this Court to grant this Petition for
Rehearing because of the substantial controlling effect
this Court has on all Lower Court judges, i.e., the
Defendant is a Lower Court Judge.
By Rule 44.2, this Petition for Rehearing is filed
within 25 days from the May 24th, 2021, Denial of the
Petition for Writ of Certiorari.

1

REASONS FOR GRANTING THE
PETITION
There is the need for ethical constitutional
interpretation of the Defendant’ judicial misconduct.
The Petitioner is concerned that denying this Petition
for Rehearing would send the wrong message to Lower
Court judges inferring, the U.S. Supreme Court
condones judicial misconduct. The Petitioner believes
the U.S. Supreme Court must also believe the
institution of court; the foundation of fairness, begins
with an honest and just judge. In other words, when
judicial misconduct is so brazening the' U.S. Supreme
Court must hold themselves accountable; a controlling
affect to repair the crack in the dam, before the dam
breaks.
I.

, The U.S. Supreme Court can assert judicial
review over questions that arise from
constitutional
ethics;
those
moral
commitments of the American ethos that are
reflected in the Constitution of the United
States.
U.S. Constitution Article III, the Judicial
power; the power to oversee .the Defendant’
misconduct is held in Section 1, this Court is
the Defendant’ boss such that the Defendant
shall only hold office during constitutionally
defined “good behavior.” This infers, in id.
Section 2 that the U.S. Supreme Court has
jurisdiction over judges as public ministers
2

or in the alternative public consuls and
extends to all cases their citizens and
subjects. The U.S. Supreme Court shall
have original jurisdiction and in all other
cases, the U.S. Supreme Court shall have
appellate jurisdiction, both as to law and
fact.
This Court ought to discipline Lower Court
judges who deliberately harm or in the
alternative seek to destroy a Party such as
was done in this Case.
II.

The First Amendment to the United States
Constitution
prevents
abridging
the
Petitioner’ right to Petition the U.S.
Supreme Court for a redress of grievances.
The Defendant’ judicial misconduct requires
this Court to allow the Petitioner’ right of
redress and the appropriate relief must
come from the U.S. Supreme Court.

!

The first instance of relief is to Grant the
Petition for Rehearing.
III.

Prudential Consideration. Should this Court
take responsibility for the misconduct of a
Lower Court judge? In Cohens v. Virginia,
19 U.S. 264 (1821), Chief Justice Marshall
spelled it out, “that it must if it should.”

3

The Defendant’ pattern of misconduct rises
to a higher level than the misconduct of
other judges. For example the Petitioner
was not even a Party to the underlying case
but was forced to defend [herself]; the
pattern of misconduct is intentional and an
abuse of judicial power.
The Defendant’ misuse of judicial power will
continue in the form of retaliation against
the Petitioner and thus asks, this Court to
Grant the Petitioner Injunctive Relief
against Defendant retaliation.’
IV.

Doctrine of Necessity. Should the U.S.
Supreme Court Grant the Petitioner a
Rehearing? The Petitioner argues the
Doctrine of Necessity infers it must because
the U.S. Supreme Court has constitutional
authority over Lower Court judges’ behavior
“particularly
in
view
of
possible
consequences.”
It is necessary for the government to
function correctly; judges must perform
their judicial duties arising from good
behavior. Contrarily, the Defendant who
performs his judicial duties with wonton bad
behavior
is
cause
of
intentional
constitutional
deprivations
such
as
excessive and switch-n-bait hearings to
deliberately
increase
the
Petitioner’
litigation costs.
4

J

It is necessary for the government to
function correctly; it is paramount
importance of constitutional adjudication,
that judges must rise to the level of good
behavior. The Defendant judge’ behavior
degrades constitutional adjudication and
must be held accountable. See Resuce Army
v. Municipal Court, 331 U.S. 549 (1947).
V.

The Doctrine of Clear Mistake. It is more
than a mistake to allow a judge to continue
intentional
constitutional
deprivation
against the non-Party just because of dislike
or whom [she] associates with. If this Court
allows the Defendant judge to have
unlimited; unchecked judicial power to
cause intentional constitutional deprivation
it would be a “very clear [mistake], so clear
that it is not open to rational question1.”
The companion “Preferred Position” is
appropriate, because, we know, due process
arises from fairness and a court of
competent jurisdiction.
This
Courts’
preferred position is to ensure that Lower
Courts ensure fairness and competency. The
Petitioner asks this Court,' “How is it
possible for a non-Party to have due process
in the Defendant’ court when the Defendant
is unfair and markedly incompetent because
of blatant, wonton bias?”

1 Thayer, J. (1908). The origin and scope of the American doctrine of
constitutional law. Legal Essays, 1, 21.

5

This Court’ perferred position must be that
all Lower Courts ensure both fairness and
competency. If this is so, this Court ought to
Grant the Petition for Rehearing.
VI.

The Petitioner, a non-Party, has done
nothing wrong, yet, an out-of-control judge
has essentially destroyed [her] life. Where
can the Petitioner go to get relief from an
incompetent and vindictive judge; a judge
who believes [he] can rewrite the
constitution and inflict punishment whether
it is lawful or not?
js reduced finding relief in
the federal bankruptcy court. This is wrong'
Citizens of the United States should not be
forced into bankrupty by inept judges
hehbent on destroying a person’ life because
ot who they associate with.

VII.

Personal Plea. Supreme Court you need to
isten to this. [You are] my last hope and
well you know, its not enough that
you
know. Where are my rights? Why are my
rights not being recognized here? That you
know, I continue to have my constitutional
rights and property rights, etc. trampled
on
by all these people and everybody just wants
to look the other way. You know, what is the
point of having these [Constitutional] rights

6

in this country, for any American, if they are
not going to be protected?

CONCLUSION
!

This Case deserves a Rehearing because this
Court constitutionally controls the behavior of Lower
Court judges, including the Defendant.

7

No. 20-7527
In The

Supreme Court of the United States
Kimberly Johnston, Petitioner
V.
Mark J. McGinnis, et al., Respondents
PETITION FOR REHEARING

Supreme Court Rule 44.2 Certification
Good Faith and Not for Delay

As required by Supreme Court Rule 44.2 Rehearing and outlined in the
Supreme Court letter dated May 24, 2021, signed by the clerk, I certify that the
document filed with this certification, Petition for Rehearing, is presented in good
faith and not for delay.
Dated by original signature June 18, 2021.

Kimberly Johnston, Pro Se
230 W. High Street
Seymour, WI 54165
Ph. 920.639.6546

V

No. 20-7527
In The

Supreme Court of the United States
Kimberly Johnston, Petitioner
V.
Mark J. McGinnis, et.al., Respondents
PETITION FOR REHEARING

Supreme Court Rule 44.2 Certification
Word Count

As required by Supreme Court Rule 44.2 Rehearing, I certify that the
document'filed with this certification, Petition for Rehearing, contains 1,110 words,
excluding the parts of the document that are exempt according to the word count
function of the word-processing program used to prepare it.
Dated: June 18, 2021

Kimberly Johnston, Petitioner, Pro Se
230 W. High St.
Seymour, WI 54165
Ph. 920.639.6546

